IN THE SUPREME COURT OF THE UNITED STATES

20 = 67
DANIELLE JONES, PETITIONER

v

UNITED STATES OF AMERICA

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

DANIELLE JONES,PRO SE
REG# 32788-058
33 1/2 PEMBROKE ROAD
DANBURY,CT 06811

B

filed
NOV 3 0 2020

I

QUESTIONS PRESENTED
IS THERE AN ACKNOWLEDGED CONFLICT AMONG THE SISTER CIRCUITS AS TO WHETHER
SECTION 924(c) CRIMINALIZES TWO SEPARATE OFFENSES (1) "CARRY OR USE" A
FIREARM DURING AND RELATION TO A DRUG TRAFFICKING OR CRIME OF VIOLENCE AND
(2) POSSESSING A FIREARM "IN FURTHERANCE OF" SUCH A CRIME: AND WHETHER BOTH
ELEMENTS MUST BE EXPLICITLY CHARGED BY THE GRAND JURY TO SERVE PROTECTION OF
THE FIFTH AMENDMENT; AVOIDING POST-GRAND JURY DECISIONS AND CROSS-MATCHING
"POSSESSION" WITH "USE" OF THE GUN?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[\/f All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

(Vo
\cO

cb-Yre.V^>
SW'-ecV i

p\^roJ^L t (\3crV^

V\j HtC biller-

Kiyp^slocd / WC Z^ l<2_

P-0 feoC

V-VCOdoSP0^^ WC.
-^cnieAVa D&Jcrcv.^inLS

Se.
Z)^112^
'XxHdW) 0*1

bcL
Db^V \

r

* -n

II
TABLE OF CONTENTS

Page
Thble of Authorities

IV, V

Opinions Below

1

Jurisdiction

1

Statutory Provisions Involved

1,2

Statement

3

Reasons for Granting the Petition

8

A. There is an acknowledged conflict among the circuit courts on whether
Section 924(c) criminalizes two separate offenses; "carry and use" and
"possession", and whether these two elements must be alleged separate and
explicitly in the indictment to properly state and offense and avoid a
fundamental structural error

8

1. Seven Circuits have declined to decide whether Section 924(c) sets forth
two separate offenses

8

2. Four Circuits have acknowledged and decided that the Section 924(c)
criminalizes two separate offenses that must not cross match possession with
use

10

B. This Case Presents An Ideal Vechile For Resolving An Issue Of
Unquestionable Importance...................
C. The Fourth Circuit's Rule is Wrong

13
14

Ill

1. The elements of "carry or use" and "possession" are two seperate elements
that must be proved and alleged in the indictments citation as well as facts
therein

14

2.Literally altering the indictment caused structural error causing effects
beyond measure and underminded the indictment process

15
16

Conclusion......................................................................

APPENDIX CONTENTS
Page
Appendix A- Fourth Circuit Opinion..........

la

Appendix B- Judgement of Conviction......

4a

Appendix C- Jury verdict.......................

5a

Appendix D- Bill of Indictment.................

6a

Appendix E- Superseding Indictment..........

9a

Appendix F- Second Superseding Indictment

13a

IV

TABLE OF AUTHORITIES

Cases:

Pages:

Gaither v United States
413 F. 2d 1061,134 U.S App D.C 154 (D.C 1969)

1

Rosemond v United States
134 S. Ct 1240

5

Weaver v Massachusetts
137 S. Ct 1899 (S.Ct 2017)

2

United States v Allen
357 F. 3d 745 (8th Cir 2004)

7

United States v Bernard
120 F. 3d 706 (7th Cir 1997)

7

United States v Brown
449 F. 3d 154 (D.C Cir 2006)

7

United States v Combs
369 F. 3d 925 (6th Cir 2004)

8.9

United States v Cooper
714 F. 3d 873 (5th Cir 2013)

8

United States v Cotton
122 S Ct 1781 (S. Ct 2002)

11,12

United States v DuBo
186 F. 3d 1177 (9th Cir 1999)

2,7

United States v Foley
73 F. 3d 484 (2nd Cir 1996)..

7

V

Cases- continued:

Pages(s)

United States v Lott
310 F. 3d 1231 (10th Cir 2002)

9

United States v Mojica-Baeza
229 F. 3d 292 (2nd Cir 2000)..

6

United States v Prentiss
255 F. 3d 971 (10th Cir 2001)

2

United States v Spinner III
180 F. 3d 514 (3rd Cir 1999).

7

United States v Timmons
283 F. 3d 1246 (11th Cir 2002)

9

30 LED 849, 121 US
1 EX PARTE BAIN (S Ct. 1887)..

11,12

1
PETITION FOR A WRIT OF CERTIORARI

OPINIONS BELOW
Ihe opinion of the court of appeals, unpublished opinion 20-6580 (see
appendix A)
JURISDICTION
Ihe judgement of the court of appeals was entered on July 13, 2020.
Petitioner filed petition for hearing en banc. Rehearing or en banc hearing
was denied on August 31,2020. The jurisdiction of this Court is invoked
under 28 U.S.C 1254(1).
STATUTORY PROVISIONS INVOLVED
Section 924(c)(1)(A) of title 18 of the United States Code provides, in
pertinent part:
Except to the extent that a greater minimum sentence is otherwise provided
by this subsection or by any other provision of law, any person who, during
and relation to any crime of violence or drug trafficking crime (including a
crime of violence or drug trafficking crime that provides for an enhanced
punishment if cormiitted by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in a court of the United
States, uses or carries a firearm, or who, in furtherance of any such crime,
possesses a firearm, shall, in addition to the punishment provided for such
a crime of violence or' drug trafficking crime—
(i) be sentenced to a term of imprisonment of not less than 5 years;
(ii) if the firearm is brandished, be sentenced to a term of imprisonment of
not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of imprisonment
of not less than 10 years.

2

Section 2(a) of that title provides: Whoever commits an offense against the
United States or aids, abets, counsels, commands, induces or procures its
comnission, is punishable as a principle.

3

STATEMENT

The decision below implicates an acknowledged conflict among the circuits
concerning distinctive review for structural errors in the indictment
process, and charging decisions on section 924(c). This Circuit conflict
subjects defendants to disparate standards of proof and punishment based on
the happenstance of where prosecution occurs, and effectiveness of counsel
to object or challenge significant errors in trial court. The indictment
process is one of the most crucial formalities bringing forth a charge in
federal courts and shall not be undermined. Courts have recognized two types
of erroneous divergences; variances and amendments. In Gaither v United
States, 413 F 2d 1061, 1071, 134 U.S App. D.C 154 (D.C Cir 1969) An
amendment of the indictment occurs when the charging terms of the indictment
are altered either literally or in effect, by the prosecutor or the court
after the grand jury has last passed upon them. Prospectively the flat rule
requires dismissal of the indictment not found by 12 grand jurors. This is
an issue that frequently arises in U.S Courts. However circuit courts
oversee this structural error reviewing simply as plain error which is
harmless.

4

This error goes beyond plain error when the amendment involves the Court
literally altering the charging terms of the indictment. This undercuts the
constitutional requirements of the Grand Jury Clause, fails to give the
defendant fair notice of the charges to prepare a defense, and avoid double
jeopardy. Weaver v Massachusetts 137 S. Ct 1899 (S. Ct 2017) describes three
ways structural error can occur; 1) If right of issue is not designed to
protect defendant from erroneous conviction but protects some other issue.
2) If effects of error are too hard to measure 3) If the error always
results in fundamental unfairness. While some circuits now reject “Russell
and Stirone requiring automatic reveral, United States v SuBo, 186 F 3d 1177
(9th Cir 1999) and United States v Prentiss 256 F 3d 971, 981-85 (10th Cir
2001) has set precedent; failure to recite an essential element of the
charged offense is not a minor technical flaw subject to harmless error
analysis, but a fatal flaw requiring dismissal of the indictment. This
Courts review is warranted.

5

1. The government presented evidence at trial of a weapon which was seized
from petitioners vehicle shortly after a robbery. This was a weapon that was
not fired, and evidence shows was not the weapon used in a crime of violence
(doc 261 pg 11 of 124 @ line 15-17). Petitioners "cohort" also testified at
trial stating that the Petitioner never had any knowledge of a weapon.
2. At approximately 9pm a call was reported of a robbery at a Dollar
General Store.

Deputy Draper stopped Petitioner 10 mins after the call,

heading in the direction of the robbery. After stopping the vehicle, one
occupant of the vehicle ran and was apprehended shortly after. On video
camera surveillance footage, the officer states "Im not even sure if this is
the right vechile" Later at trial the same officer goes on to say " • • • • they
look like they were lost"
Petitioner was originally charged with one count 1951; armed robbery. The
government stated to Petitioner that he did not believe he could convict on
a 924(c) due to the evidence and the weapon recovered not being used in the
robbery. A plea was offered. Petitioner was adamant of her innocence and
refused any plea offer. The plea was for time served, if admitted guilt of
perjury.

6

Because the Petitioner refused to cooperate, the government pursed a
superseding indictment adding a unindicted co-conspirator which was
selectively un-prosecuted and a charge of 924(c). On the 924(c) charge, an
element of possession was omitted. The Grand Jury charged not finding
element of possession.
A couple months prior to trial the government added the language of
possession to the indictment, claiming this was just a minor oversight.
Counsel objected to this post grand jury changing decision.
During the jury instructions the court states,"Now of course we have
charged Ms. Jones— and we have proven Ms. Jones aided and abetted • • • " (doc
261 pg 14 of 124), Ultimately there was a verdict of guilty and the
petitioner was sentenced to 124 months.

7

3. The Court of appeals Affirmed, rejecting arguments of erroneous jury
instructions, prosecutorial misconduct, and conviction in violation of
precedent in Rosemond v United States 134 S. Ct 1240). There was lack of
sufficient evidence to convict on either prong of 924(c).
The jurors convicted the petitioner on a general verdict. The use or carry
and possession of a weapon used in a crime of violence. The jurors had not
been required to specify under which theory they convicted.
The court rejected Petitioners supplemental brief arguing significant
claims which counsel failed to assert, such as defective indictment, abuse
of discretion in denying motion to suppress, use of fabricated evidence and
a search warrant which was not filed in court and many other non frivolous
claims. Re-submitting these arguments to the appeals court, again they were
denied in petition for rehearing en banc.

8

REASONS FOR GRANTING THE PETITION

Tiere is an acknowledged conflict among the circuit courts on whether
Section 924(c) criminalizes two separate offenses; "carry and use" and
"possession", and whether these two elements must be alleged seperate and
explicitly in the indictment to properly state an offense and avoid a
fundamental structural error. Outstanding misconception and confusion lies
to the narrow distinction of plain error and structural error or
constructive amendments and those which are judicial amendments or post
grand jury decisions.

SEVEN CIRCUITS HAVE DECLINED TO DECIDE WHETHER SECTION 924(c) SETS FORTH TOO
SEPARATE OFFENSES
The First Circuit in United States v Mojica-Baeza 229 F. 3d 292 (2nd Cir
2000) does not review the particular elements within the 9243(c) subsection
but cites some cases for the proposition that omission of an element from an
indictment is never harmless error. The First Circuit goes on to review
categories of error which shall be fundamental structural errors but does
not decide here whether the indictment was defective or inadequate for its
failure to do more than refer to the "use of a firearm".

9

The District of Columbia, United States of America v Brown 449 F. 3d 154
0.C Circuit 2006); requires inference of an element of intent in strict
liability criminal statues. The Eighth Circuit in United States of America v
Allen 357 F. 3d. 745 (8th Cir 2004); facts that support aggravators on
924(c) charges must be authorized by the indicted offense and not based on
post grand jury decisions. Other Circuits have yet to make decisions as to
. the separate prongs on the 924(c) section, but have made decisions on
omission of elements of a crime or charges which broadens the grand jury
indictment. United States v Foley 73 F. 3d 484 (2nd Cir 1996); A failure of
the indictment to charge an offense may be treated as a jurisdictional
defect, and appellate court must notice such a flaw. When one element of an
offense is implicit in the statue , rather than explicitly, the indictment
fails to allege an offense. United States v Spinner III 180 F. 3d 514 (3rd
Cir 1999); An indictment, to be sufficient, had to contain all the elements
of a crime. United States v Bernard 120 F. 3d 706 (7th Cir 1997); charges
which broaden or alter any material element must be re-submitted to the
grand jury. United States v DuBo 186 F 3d 1177 (9th Cir 1999); Complete
failure to recite an essential element of the charged offense is not a minor
technical flaw subject to harmless error analysis, but a fatal flaw required
dismissal of the indictment.

10

FOUR CIRCUITS HAVE ACKNOWLEDGED AND DECIDED THAT THE STATUE 924(c)
CRIMINALIZES TOO SEPARATE OFFENSES AND MUST NOT CROSS MATCH POSSESSION WITH
USE?
In United States v Cooper 714 F.3d 873 (5th Cir 2013) 18 U.S.C.S
924(c)(1)(A) proscribes two different types of conduct: the use or carrying
of a firearm and in relation to any crime of violence or drug trafficking
crime and the possession of a firearm in furtherance of any such crime. In
this case the Fifth Circuit uses a deferential standard of review finding
that when charged offense conduct in a defendants indictment were ambiguous,
any such ambiguity was cured by the captions. However the indictment must
include all elements of the charged offense, describe with particularity,
and specific enough to protect the defendant against subsequent prosecution
for the same offense. United States v Combs 369 F. 3d 925 (6th Cir 2004);
924(c) criminalizes two separate offenses and they were confused in the
trial, jury instructions, and conviction; cross matching "possession" with
"use" of the gun. It was an impermissible amendment of the indictment
constituting per se prejudice.

11

United States v Lott 310 F 3d 1231 (10th Cir 2002); 924(c) count included
two distinct offenses

• • t •

A crime denounced in the statue disjunctively may

be alleged in an indictment in the conjunctive, and thereafter proven in the
disjunctive. Here the Tenth Circuit agrees with other circuits that the
firearm enhancement statue must clearly state each essential element of the
offense disjunctively in the statue and later proven separately. United
States v Tinmons 283 F 3d 1246 (11th Cir 2002); The Eleventh Circuit finds
that a defendant who is found to "carry" a weapon can also satisfy the
element of "use" and in relation to" but the element of "possession" is a
separate and distinctive element that must be proved "in furtherance of"
such a crime alleged in the statue. The Sixth circuit gives an expansive
review on why the section 924(c) criminalizes two separate offenses and
acknowledges that other circuits are split in the finding that these
elements shall not be confused nor charged interchangably ;United States v
Combs 369 F. 3d 925 (6th Cir 2004).

12

In Combs the indictment was "literally altered" indicting for the unlawful
possession of a firearm and was convicted of a different offense— unlawful
use or carrying of a firearm. Jury instructions facilitated the amendment,
first by intermixing elements of both offenses, then providing supplemental
explanation aligned with the un-indicted "use" offense, for which Combs was
ultimately convicted, instead of the "possession" offense which he was
originally indicted. The Court rejected the governments argument that this
was a variance in the form of a constructive amendment which resulted in no
prejudice due to the fact that the indictment was literally altered and
Combs was convicted of an offense that was not subject of his indictment.

13

THIS CASE PRESENTS AN IDEAL VEHICLE FOR RESOLVING AN ISSUE OF
UNQUESTIONABLE IMPORTANCE

The question here is unquestionably important. The government prosecutes an
staggering amount of Section 924(c) cases; one of the most common offenses
carrying a mandatory minimum sentence. It has been a settled rule that an
indictment must allege all essential elements of an offense in an indictment-,
and must not be altered except by re-submitting to the grand jury, 30 LED
849, 121 US 1 EX Parte Bain (S. CT 1887) Although Bain was overruled by
United States v Cotton, 122 S CT 1781, 152 LED 2D 860, 535 US 625 (S Ct
2002), Cotton held that omission from a federal indictment of fact held not
to vacate an sentence were the accused did not object in trial court. This
however does not overrule the declaration of article V of the Amendments of
the Constitution or the long standing rule that essential elements must be
charged in the indictment. Some circuits will sustain a conviction were a
defendants indictment failed to allege all essential elements of section
924(c) but were only convicted on the indicted offense. The questions now
standing need be claryfied for the circuit courts; When Section 924(c) fails
to allege both the "use or carry" and "possession" does it fail to allege an
offense and whether the section criminalizes two separate offenses that must
be separately charged and proved beyond a reasonable doubt and must not be
intermixed?

14

THE FOURTH CIRCUIT DECISION IS WRONG
"Use or carry" and "possession" are two separate and distinctive charges of
conduct and must be alleged in the indictments citation as essential
elements as well as the facts therein. The Fourth Circuit's rule is
inconsistent with the opinions of the Supreme Court "Bain" and "Cotton". The
petitioner was convicted on an indictment that was literally altered to
broaden chances for conviction, objection was made in trial court, and the
court of appeals failed to correct such an error despite defendants attempts
to assert in pro se supplemental on direct appeal. The Fourth Circuit
ignored many errors in this case that were plain and/or structural and the
petitioner has been deprived of review; counsel was ineffective failing to
assert claims that were more significant. In this case the original
indictment did not charge defendant with 924(c). In the superseding
indictment, the grand jury charged: " • • • The defendant did knowingly carry
and use a firearm in furtherance of a crime of violence". This fails to
allege an offense for the following reasons: 1. "The carry and use" element
should be stated "in relation to" not "in furtherance of" 2.The element of
possession is omitted. 3. The indictment fails to allege that the crime was
committed willfully, thus the intent element is not satisfied.

15

The second superseding indictment errors are structural for the following
reasons: 1. It was literally altered by the court, which was a post grand
jury charging decision, (changes were made to state: " The defendant did
knowingly possess a firearm in furtherance of a crime of violence • • • and did
use and carry a firearm during and in relation to a crime of violence").
This charging decision has effects beyond measure; it is unknown which
rationale the jury convicted, the petitioner did not have fair notice, and
her Fifth Amendment rights were violated. The intent element still was not
alleged by omitting the term "willfully". Later the jury instructions and
verdict form were also altered to accommodate the changes in the indictment.
This case is most similar to that of Combs the defendant was convicted of
and offense other than the one indicted. The failure for the courts to be in
union, not confusing the elements within the section 924(c) is causing
severe disparity based on the happenstance of which court a defendant is
charged. The petitioner asserts that her Fifth Amendment Right was violated
for failure to bring forth charges only by a grand jury and to give fair
notice of such charges to prepare for trial. The errors in this case were
structural and beyond measure.

A -

16

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
pCAA.JQ,Q QjO

Date:

A>0

K^QviP/Yv\n2r 1S\ ISfiV

